No.

In tfje Supreme Court of tfje linfteS States
Solon Phillips,
PETITIONER
V.

MARYLAND BOARD OF LAW EXAMINERS, ET AL.,
On Petition for a Writ of Certiorari to the
United States Fourth Circuit Court of Appeals
CERTIFICATE OF SERVICE

I HEREBY CERTIFY that on December 10, 2020,1 forwarded a copy of
Petitioner’s Write of Certiorari to the United States Fourth Circuit Court of
Appeals by U.S. Postal mail and electronic mail to:
Beatrice O. Bassey
Assistant Attorney General
200 Saint Paul Place
Baltimore, MD 21202
bbassey@oag.state.md.us

Solon Phillips, Esq.
Petitioner
Pro se
4801 Bartletts Vision Drive
Bowie, MD 20720
solonesa@gmail.com
(202) 329-1799

